OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/ZAMBIA’S
PROCUREMENT AND
DISTRIBUTION OF
COMMODITIES FOR THE
PRESIDENT’S EMERGENCY
PLAN FOR AIDS RELIEF
AUDIT REPORT NO. 9-611-08-007-P
MAY 30, 2008




WASHINGTON, DC

Office of Inspector General


May 30, 2008

MEMORANDUM

TO:       	          USAID/Zambia Director, Melissa E. Williams

FROM: 	              IG/A/PA Director, Steven H. Bernstein /s/

SUBJECT:	            Audit of USAID/Zambia’s Procurement and Distribution of Commodities for the
                     President’s Emergency Plan for AIDS Relief (Report No. 9-611-08-007-P)


This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft report and have included your comments in their
entirety in appendix II.

This report contains four recommendations intended to strengthen certain aspects of
USAID/Zambia’s procurement, deployment, and warehousing of commodities procured and
distributed for the President’s Emergency Plan for AIDS Relief. The mission concurred with all
four recommendations, described actions taken to address our concerns, and provided
supporting documentation. As a result, we determined that final action has been taken on all
four recommendations.

Thank you for the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


Audit Objective .................................................................................................................. 4 


Audit Findings ................................................................................................................. 5 


     More Coordination Is Needed to Improve
     Storage Conditions and Facility Staff Training ............................................................ 6 


     Essential Medicines Were Often
     Reported to Be Unavailable ...................................................................................... 14 


Evaluation of Management Comments ....................................................................... 16 


Appendix I – Scope and Methodology.........................................................................17 


Appendix II – Management Comments ....................................................................... 20 


Appendix III – Partners Procuring Commodities ....................................................... 24 


Appendix IV – Storage Conditions Tested.................................................................. 25 


Appendix V – Site Visit to Nairobi Regional Distribution Center.............................. 26

SUMMARY OF RESULTS

During 2007, USAID/Zambia procured more than $26 million worth of antiretroviral drugs
and HIV test kits in support of the President’s Emergency Plan for AIDS Relief
(PEPFAR). PEPFAR is the U.S. Government strategy to prevent, treat, and care for
individuals with HIV/AIDS (page 3). For a schedule of commodities procured by
USAID/Zambia’s implementing partners during 2007, see appendix III.

The Office of Inspector General conducted this audit to determine whether
USAID/Zambia procured, deployed, and warehoused its PEPFAR commodities to help
ensure that intended results were achieved, and to determine the impact of these efforts
(page 4).1

In general, USAID/Zambia procured, deployed, and warehoused its commodities to help
ensure that intended results were achieved (page 5).2 USAID’s efforts had a substantial
impact by contributing to 46,670 individuals receiving antiretroviral therapy
(approximately 38 percent of the total 122,684 Zambians reported to be on therapy at
September 30, 2007) exceeding targets for both 2007 and 2008. Antiretroviral therapy
allows those living with HIV/AIDS to live longer, healthier lives (page 6).3

However, to help ensure that USAID/Zambia continues to achieve intended results, the
mission needs to coordinate more closely with USAID/Washington staff responsible for
administering two USAID/Washington-managed contracts to help ensure that storage
conditions and health facility staff training are monitored and strengthened (page 6). In
addition, “essential medicines,” such as antibiotics and antifungal drugs needed to
prevent and treat opportunistic infections, sexually transmitted diseases, and cancers,
were frequently reported to be unavailable when needed. This shortage of essential
medicines for HIV/AIDS patients, could limit the positive impact of procuring, deploying,
and warehousing HIV test kits and antiretroviral drugs (page 14).




1
  In this audit, PEPFAR commodities are defined as products purchased with PEPFAR funding
for the detection and treatment of HIV/AIDS, including antiretroviral drugs, test kits, lab
equipment, lab supplies, and other essential drugs and medicines used to prevent and treat
HIV/AIDS-related opportunistic infections.     PEPFAR commodities are referred to as
“commodities” throughout this report.
2
  USAID/Zambia procures commodities on behalf of the Government of Zambia. According to
mission staff, even though in-country deployment and warehousing are not USAID’s direct
responsibility, the mission provides technical assistance and training in these areas.
3
  USAID/Zambia reported 46,670 individuals on antiretroviral therapy as its portion of the total
U.S. Government effort. This figure includes only individuals who received therapy at facilities
receiving USAID support. However, the Government of Zambia distributed antiretroviral drugs,
some of which USAID procured, to health and storage facilities throughout the country.
According to unaudited information provided by the Partnership for Supply Chain Management’s
Zambia office, USAID procured approximately 67 percent of the antiretroviral drugs procured in
Zambia during 2007.


                                                                                              1
This report includes the following recommendations for USAID/Zambia:

   •	 Collaborate with Global Health Bureau personnel to incorporate into
      project work plans measures to fully implement the contractor’s facility
      monitoring and evaluation plan (page 11).

   •	 Collaborate with Global Health Bureau personnel to incorporate into
      project work plans measures to increase training for storage facility staff
      (page 11).

   •	 Collaborate with other members of the U.S. Government country team
      and with the Government of Zambia to develop an action plan to improve
      commodity storage conditions (page 11).

   •	 Collaborate with Global Health Bureau personnel to incorporate into
      project work plans measures to increase logistics management
      information system training for health facility staff (page 13).

This report also includes a summary of a site visit to the Partnership for Supply Chain
Management’s regional distribution center in Nairobi, Kenya (appendix V).

The mission concurred with all four recommendations, described actions taken to
address our concerns, and provided supporting documentation. As a result, we
determined that final action has been taken on all four recommendations. See page 16
for our evaluation of management comments.




                                                                                     2
BACKGROUND 

In May 2003, Congress enacted legislation to fight HIV/AIDS globally through the
President’s Emergency Plan for AIDS Relief (PEPFAR). Although PEPFAR was
originally intended to provide $15 billion over 5 years for the prevention, treatment, and
care of individuals with HIV/AIDS, $18.8 billion has been committed through January 3,
2008, with 58 percent allocated to programs in 15 focus countries. 4 In addition,
President Bush has requested that Congress reauthorize PEPFAR for $30 billion over 5
more years.

The Office of the Global AIDS Coordinator at the Department of State oversees
accountability for the results of PEPFAR.        The Coordinator manages all U.S.
Government international HIV/AIDS assistance efforts and approves and coordinates the
efforts of the participating agencies and departments. For example, most PEPFAR
funds are appropriated to the Department of State. A portion of the funds is allocated or
transferred to USAID, with USAID assigned certain aspects of implementation. The
Coordinator also issues annual guidance concerning country operational plans and
mandatory targets.

In September 2005, USAID contracted with the Partnership for Supply Chain
Management (the Partnership) to procure commodities for the care and treatment of
HIV/AIDS and related infections, and to provide related technical assistance. 5 This
USAID/Washington-managed contract has a ceiling price of $7 billion.
USAID/Washington’s contracting officer issues task orders against the contract as needs
become defined. The first task orders called for up to $652 million over 3 years to
procure and distribute antiretroviral drugs and other commodities and to provide
technical assistance for supply chains. Missions access the task orders by allocating
mission funding to the contract.6 The task orders have estimated completion dates of
September 29, 2008.

According to information provided by the Partnership, as of September 30, 2007,
departments and agencies of the U.S. Government had procured nearly $111 million in
commodities through the contract with the Partnership. Almost $31 million, or 28
percent, of these commodities were procured by USAID/Zambia through the first task
order described above.7

4
 The 15 focus countries are Botswana, Côte d’Ivoire, Ethiopia, Guyana, Haiti, Kenya,
Mozambique, Namibia, Nigeria, Rwanda, South Africa, Tanzania, Uganda, Vietnam, and Zambia.
5
 The Partnership for Supply Chain Management is a nonprofit organization established by JSI
Research & Training Institute and Management Sciences for Health. The partnership includes
nonprofit organizations, commercial private sector corporations, academic institutions, and faith-
based organizations.
6
  Throughout this report, the terms “mission funding” or “mission-funded” are used to describe
money appropriated to the Department of State and allocated or transferred to USAID missions
for PEPFAR activities.
7
    These figures are unaudited.



                                                                                                3
USAID/Zambia procured technical assistance from John Snow, Inc.’s USAID|DELIVER
project. The goal of this project is to ensure an uninterrupted supply of PEPFAR
commodities, particularly antiretroviral drugs and HIV test kits, in public sector health
facilities in Zambia. The project includes five key strategic interventions:

      1. 	 Strengthen the management of logistics information at the central warehouse
           in Lusaka in relation to antiretroviral drugs and HIV test kits.

      2. 	 Improve the supply chain for antiretroviral drugs.

      3. 	 Improve the supply chain for HIV test kits.

      4. 	Assist with the national coordination of antiretroviral drug and HIV test kit
          quantification and procurement planning.

      5. 	Assist in improving storage conditions for HIV/AIDS commodities at the
          central warehouse and facility levels.

Zambia received nearly $82 million in PEPFAR funding in fiscal year 2004, more than
$130 million in fiscal year 2005, approximately $149 million in fiscal year 2006, and $216
million in fiscal year 2007 to support the prevention, treatment and care of HIV/AIDS.8
According to the Joint United Nations Programme on HIV/AIDS (United Nations), the
HIV prevalence rate among adults (ages 15–49) in Zambia is approximately 17 percent.9
In 2006, the United Nations estimated that approximately 1.1 million Zambians were
living with HIV. The Government of Zambia’s national target is to have 200,000
individuals on therapy by December 2008.

In July 2005, the Government of Zambia began providing free antiretroviral therapy
services at public health facilities for all Zambians. As a result, therapy is now available
to a significantly larger proportion of Zambians needing these life-extending services.
Providing these free services has increased the burden on a public health system
already at its limits of providing HIV counseling and testing, the entry point to
antiretroviral therapy services.

AUDIT OBJECTIVE
The Office of Inspector General conducted this audit as part of its fiscal year 2007 audit
plan to answer the following question:

      •	 Has USAID/Zambia procured, deployed, and warehoused its PEPFAR
         commodities to help ensure that intended results were achieved, and what
         has been the impact?

This audit is the first in a series of similar audits to be conducted at other missions during
fiscal year 2008.

Appendix I contains a discussion of the audit scope and methodology.
8
    These figures were obtained from the PEPFAR Web site, http://www.pepfar.gov.
9
    Joint United Nations Programme on HIV/AIDS, 2007 AIDS Epidemic Update.

                                                                                            4
AUDIT FINDINGS

In general, USAID/Zambia procured, deployed, and warehoused its President's
Emergency Plan for AIDS Relief (PEPFAR) commodities to help ensure that intended
results were achieved. In addition, USAID’s efforts have had a substantial impact on the
number of individuals on antiretroviral therapy. The following paragraphs answer the
audit objective more fully and describe the impact of USAID’s efforts.

Procured – USAID/Zambia procured more than 100 percent of the planned procurement
of commodities reported in the 2007 country operational plan. The mission planned $24
million for antiretroviral drug and HIV test kit procurement during fiscal year 2007, and
procured nearly $26.4 million worth of these commodities.10

Deployed – Commodities were deployed first to the central warehouse in Lusaka,
Zambia and then to district storage facilities (for distribution to clinics) and hospitals.11
The clinics and hospitals we visited used these commodities for patient care. Test kits
were almost always available. At storage and health facilities visited, staff reported that
antiretroviral drugs and lab supplies, for the most part, were available when needed. At
health facilities visited, laboratory equipment provided by an implementing partner during
2007 was in place and was operating as intended, making HIV testing more readily
available. At the five health facilities visited, the availability of HIV test kits, laboratory
equipment, lab supplies, and antiretroviral drugs contributed to the following numbers of
individuals on antiretroviral therapy:

                                                             Individuals on
                                                              Antiretroviral
                        Health Facility Visited                 Therapy
               Chipokota Mayamba Health Center                    1,092
               Kitwe Central Hospital                             3,327
               Chimwemwe Clinic                                    861
               Mahatma Ghandi Health Center                       1,810
               Liteta District Hospital                            896
                                           Total                  7,986

Warehoused – At the five health facilities and the four storage facilities visited, storage
conditions generally met the standards set by Zambia’s Ministry of Health. Situations in
which standards were not always met or were not met are discussed beginning on page
8. See appendix IV for the storage conditions tested.

10
  The planned figure represents the amount reported in Zambia’s 2007 operational plan for the
Partnership for Supply Chain Management (the Partnership), the mission’s primary commodity
procurement partner. The procured amount was reported by the Partnership, and is unaudited.
The Office of the Global AIDS Coordinator has not established targets for commodity
procurement. Therefore, there are no targets for the number of items to procure.
11
  Commodities procured by USAID/Zambia, the Government of Zambia, and other donors such
as the Global Fund and the Clinton Foundation, are stored at the Government of Zambia’s central
warehouse in Lusaka. The Zambian Ministry of Health then distributes the commodities to district
storage and health facilities.



                                                                                              5
Impact – USAID’s efforts in procuring, deploying, and warehousing its commodities
have had a positive impact on the number of individuals on antiretroviral therapy.
Antiretroviral therapy allows those living with HIV/AIDS to live longer, healthier lives.
Although the Office of the Global AIDS Coordinator has not established any required
indicators related to the procurement, deployment, or warehousing of commodities, a
related indicator—the number of individuals on antiretroviral therapy—shows that
USAID’s efforts have made a substantial impact in this area. Based on draft information
provided by USAID/Zambia, as of September 30, 2007, the mission’s use of PEPFAR
funds contributed to 46,670 individuals receiving therapy, approximately 38 percent of
the total 122,684 reported for Zambia in the most recent PEPFAR annual performance
report (see footnote 3 for further discussion). Based on this draft information, Zambia
has already exceeded the fiscal year 2007 target of 109,050 individuals on therapy and
the fiscal year 2008 target of 120,000 individuals on therapy.

However, to help ensure that the mission continues to achieve desired results, it needs
to coordinate more closely with USAID/Washington staff responsible for administering
two USAID/Washington-managed contracts to better ensure that storage conditions and
health facility staff training are monitored and strengthened. In addition, “essential
medicines,” such as antibiotics and antifungal drugs needed to prevent and treat
opportunistic infections, sexually transmitted diseases, and cancers, were frequently
reported to be unavailable when needed. This shortage of essential medicines for
HIV/AIDS patients could limit the positive impact of procuring, deploying, and
warehousing HIV test kits and antiretroviral drugs. These issues are discussed below.



More Coordination Is Needed
to Improve Storage Conditions
and Facility Staff Training

  Summary: USAID policy states that it is important for all team members to clearly
  understand the scope and limitations of their assigned roles and to consult with the
  contracting officer on potential arrangements between activity managers and
  cognizant technical officers. However, because the activity manager and the
  cognizant technical officer did not fully coordinate their efforts, there was
  uncertainty about the roles and authorities of the activity manager and the
  cognizant technical officer on a USAID/Washington-managed contract financed
  with mission funds. This, in part, resulted in gaps in the quality of commodity
  storage conditions and underscored the need to strengthen facility staff training.

USAID policy states that an activity manager is a member of a program team selected
by the team to be responsible for the day-to-day management of one or more specific
activities. The activity manager may also be the cognizant technical officer, whose
authority to carry out contract management functions is designated by a contracting
officer. The policy also explains that an activity manager addresses management and
coordination issues beyond the prescribed role of the cognizant technical officer.
Additionally, the policy states that it is important for all team members to clearly




                                                                                         6
understand the scope and limitations of the roles they are assigned and to consult with
the contracting officer on potential arrangements.12

However, uncertainty existed over the roles and authorities of the activity manager,
located at USAID/Zambia, and the cognizant technical officer, located at
USAID/Washington, concerning the USAID|DELIVER project implemented by John
Snow, Inc. This USAID partner is responsible for conducting site visits to monitor
storage conditions and health facility staff training on the logistics management
information system. The contract is managed by USAID/Washington staff in the Global
Health Bureau. However, activities in Zambia are funded by the mission through a
mechanism called “field support.” 13      USAID commonly uses these types of
arrangements. Mission staff reported that they used between 18 and 20 field support
mechanisms across all their programs.

The following points demonstrate the uncertainty over the roles and authorities:

     •	 Mission staff said that they did not have the authority to provide instructions
        to the partner because the staff members were not fully aware of the scope of
        the contract or task orders. For example, they did not know whether
        retraining was built into the contract, or if the partner used co-training teams
        (i.e., teams composed of Government of Zambia employees and partner
        staff). They said that only the Washington-based cognizant technical officer
        or contracting officer had authority to instruct the partner. USAID/Washington
        staff said that the activity manager has the authority to instruct the in-country
        partner and to more closely examine the partner’s monitoring and evaluation
        plan.

     •	 Mission staff said that only the Washington-based cognizant technical officer
        or contracting officer had the authority to adjust and approve work plans.
        USAID/Washington staff said that although they approved the annual work
        plans, the plans are developed in-country and could be adjusted in-country.

Mission and USAID/Washington staff stated that the PEPFAR funding and approval
process further complicated lines of responsibility. The cognizant technical officer said
that because of this approval process, he did not have the control he would typically
have to adjust partner work plans.

Insufficient coordination and communication between the USAID/Washington-based
cognizant technical officer and the mission-based activity manager caused uncertainty
over lines of responsibility. The lack of a USAID policy clearly delineating the scope and
the limitations of the activity manager’s role when involved in a USAID/Washington­
managed (but mission-funded) contract added to the uncertainty.

This uncertainty, in part, resulted in gaps in the quality of commodity storage conditions

12
  USAID’s Automated Directives System 200, Introduction to Managing for Results (Introduction
to Programming Policy), section 200.6.B, and Automated Directives System 202, Achieving,
section 202.3.4.3(b).
13
  Field support is a mechanism by which missions use their funding to access contracts awarded
by USAID/Washington.

                                                                                            7
and emphasized the need to strengthen facility staff training. Mission staff did not
realize that it needed to coordinate with key personnel in USAID/Washington’s Global
Health Bureau to incorporate certain measures into an implementing partner’s work
plans to improve commodity storage conditions and provide increased training to facility
staff. The two subsections below discuss these issues.

Commodities Require Better Storage – Zambia’s Ministry of Health developed its
guidelines for commodity storage in conjunction with the USAID|DELIVER project, based
on standards of the World Health Organization.

Pursuant to those guidelines, the contractor’s work plan for fiscal year 2007 stated that
one of its five objectives was to achieve adequate, safe, and secure commodity storage
at the central warehouse and facility levels. The work plan indicates that a monitoring
and evaluation strategy, which would include site visits to check monitoring of storage
conditions, would be developed, but that the number of site visits would depend on staff
availability. In addition, one of the tasks included in the Partnership for Supply Chain
Management contract, for which John Snow, Inc., is one of the two prime partners, is
that the partner will review proper management of in-country supplies to ensure that
storage conditions support desired standards for quality assurance.

Most of the storage facilities visited followed many of the guidelines for proper storage of
antiretroviral drugs and test kits. For example, most of the facilities appeared to be
reasonably secured, antiretroviral drugs and test kits were stacked no more than 8 feet
high and were at least 4 inches off the floor on pallets or shelves, most were stored
away from direct sunlight, and there was no evidence of water damage or rodents. In
general, products appeared to be stored according to the recommended first-to-expire,
first-out system, with few problems noted with expiry dates.

However, storage guidelines were not always followed, as in the following examples:

   •	 Antiretroviral drugs stacked against storeroom walls: Six of nine facilities
      visited did not ensure that antiretroviral drugs were stacked at least 1 foot
      away from the walls. The antiretroviral drugs at the central warehouse in
      Lusaka were stacked next to the wall, and the warehouse manager
      acknowledged that they needed to be moved. According to the storage
      guidelines, storing the drugs away from walls promotes air circulation and
      eases movement of stock, cleaning, and inspection.

   •	 Lack of fire extinguishers: Five of nine facilities visited did not have fire
      extinguishers. At another facility, the fire extinguisher was not in the same
      area where the antiretroviral drugs were stored. We did not see any fire
      extinguishers in the secured area containing antiretroviral drugs or in the test
      kit storage area at the central warehouse in Lusaka.

   •	 Lack of temperature control and backup generators: Many of the facilities
      visited were not able to store products at the proper temperature. Most did
      not have fans in the storerooms. Staff at one clinic stated that they put a fan
      in the storeroom when it was “red hot,” but at the time of the site visit, the
      temperature in the storeroom was already approximately 82 degrees. Four of
      nine facilities visited either did not have air conditioners in the storerooms or
      had air conditioners that did not work. In addition, none of the sites had air

                                                                                          8
conditioners in the dispensary rooms where antiretroviral drugs were also
stored and dispensed. Several facilities either did not have thermometers to
monitor temperature or had thermometers that did not work. None had
backup generators to ensure that antiretroviral drugs and test kits were stored
at the proper temperature. The central warehouse manager stated that they
planned to install a generator as part of a renovation project.




                  Photograph taken by OIG auditor on
                  November 7, 2007, at the central warehouse
                  in Lusaka, showing antiretroviral drugs
                  stacked against the storeroom wall.

According to storage guidelines, extreme heat can dramatically shorten shelf
life. Temperatures in storerooms should not exceed 81 degrees: most
antiretroviral drugs require storage below 77 degrees, and most test kits
require storage below 86 degrees. Some of the sites without working air
conditioners appeared to exceed the 81-degree ceiling for antiretroviral
drugs. For example, on a visit to one clinic on an overcast day, the
thermometer already read 82 degrees at 12:30 p.m. At two sites with similar
climatic conditions, visited during the cooler morning hours, it is likely that the
temperature would exceed 81 degrees on sunny afternoons.




                                                                                      9
      •	 Expired and unexpired drugs were not always separated: In several
         instances, expired products were improperly handled. At one clinic, for
         example, a test kit due to expire on November 11, 2007, was stored at the
         bottom of a stack of test kits that would not expire until 2008. This facility
         also had boxes of antiretroviral drugs thrown into a box in the dispensary
         mixed with other types of antiretroviral drugs. At a hospital with seven HIV
         testing centers, one testing center had 89 test kits, 83 of which had expired.
         This was at least partially due to the center storing individual test kits in old
         test kit packages; the lot numbers of the individual test kits did not match the
         lot number of the package containing them. We noted similar problems at
         some other facilities. At a district storage facility, for example, several boxes
         of recently expired antiretroviral drugs had not been separated from the
         unexpired drugs.14

The poor storage conditions were caused by a delay in fully implementing the partner’s
monitoring and evaluation plan and by the need for additional training for storage facility
staff. Although the partner had developed a monitoring and evaluation system, the
partner, in conjunction with Ministry of Health district staff, visited only four health
facilities, all during the last quarter of fiscal year 2007. 15 According to the partner,
implementation was delayed due to “training overload” because of high levels of attrition
among health facility personnel. Staff burnout, availability of better and higher paying
jobs outside the public sector and in neighboring countries, and deaths due to HIV/AIDS
created these high attrition rates. Additionally, according to the partner, a higher-than­
expected number of antiretroviral therapy and testing sites came on board during 2007,
increasing the need to train and retrain staff at these sites.16 According to mission staff,
implementing partners, district health officers, and health facility staff, the human
resource shortage in Zambia has resulted in a situation in which four people must be
trained to have one trained person on staff.

Mission and USAID/Washington staff said that it may be difficult to improve commodity
storage conditions in the short term. Mission staff reported that they did not have the
authority to instruct the partner to fully implement the monitoring and evaluation plan or
provide additional storage facility staff training because the USAID|DELIVER project and
the Partnership for Supply Chain Management contract are managed by
USAID/Washington’s Global Health Bureau.               Mission staff said that only the
Washington-based cognizant technical officer had that authority, as well as the authority
to adjust work plans. USAID/Washington staff said that they manage the contracts on a
macro level and that the activity manager in Zambia knows what needs to be done on a
day-to-day basis. Obviously, improved communication is needed between the activity
manager and the Washington-based cognizant technical officer and contracting officer.
This issue is discussed on page 6.
14
     There was no evidence that expired products were being used.
15
  According to the partner’s July–September 2007 quarterly report, the partner made monitoring
and evaluation visits to three health centers and one district hospital. The visits focused on
accurate and timely reporting and ordering, logistics management information system
recordkeeping, and proper antiretroviral drug storage.
16
  The implementing partner reported, in the 2007 draft annual performance report for PEPFAR,
that although it was originally estimated that there would be 450 testing sites nationwide, there
were actually more than 1,200 testing sites, and more were coming on board each month.

                                                                                              10
Inadequate storage conditions could result in reduced quality, efficacy, and shelf life for
the $26.4 million in antiretroviral drugs and test kits procured during 2007 and the $26
million in planned 2008 procurements. Therefore, we are making the following
recommendations.

     Recommendation No. 1: We recommend that USAID/Zambia, in collaboration
     with key personnel in the Global Health Bureau, incorporate into project work
     plans measures to fully implement the contractor’s facility monitoring and
     evaluation plan.

     Recommendation No. 2: We recommend that USAID/Zambia, in collaboration
     with key personnel in the Global Health Bureau, incorporate into project work
     plans measures to increase training for storage facility staff.

Mission staff reported that procuring fans, fire extinguishers, generators, and other
equipment to improve storage conditions would require significant PEPFAR resources.
To obtain additional PEPFAR resources the mission needed to coordinate with other
members of the U.S. Government’s country team in Zambia and with the Government of
Zambia.17 The mission had not yet collaborated with these groups to develop an action
plan to improve storage conditions.      Therefore, we are making the following
recommendation.

     Recommendation No. 3: We recommend that USAID/Zambia, in collaboration
     with other members of the U.S. Government country team and with the
     Government of Zambia, develop an action plan to improve commodity storage
     conditions.

Health Facility Staff Need Additional Training – Zambia’s Ministry of Health’s
standard operating procedures provide detailed guidance regarding the national logistics
management information system and procedures for completing monthly inventory
reporting and ordering forms. The Ministry developed these guidelines in conjunction
with the USAID|DELIVER project. According to the guidelines, the purpose of an
inventory control system is to inform personnel when and how much of a commodity to
order and to maintain appropriate stock levels to meet client needs. A well-designed
and well-operated inventory control system helps prevent shortages, oversupply, and
expiry of products.

Each month, health facilities manually complete report and requisition forms to order
antiretroviral drugs and test kits.18 Clinics submit these forms to district health offices for
consolidation; district health offices then submit consolidated reports to the central
warehouse. Hospitals submit their forms directly to the central warehouse. The logistics
17
  The U.S. Government’s county team includes representatives from the Departments of State
and Defense, the Centers for Disease Control and Prevention, Peace Corps, and USAID. The
team works closely with the PEPFAR coordinator in Zambia to ensure that country program
decisions adhere to PEPFAR policy.
18
  At the time of this audit, the implementing partner was conducting test kit pilot programs in two
provinces in an effort to get the test kit logistics system to duplicate the antiretroviral drug system.
At most of the clinics visited, only the pharmacy dispensing tool was computerized.


                                                                                                     11
management information system at the central warehouse processes the reports and
calculates the quantity of drugs and test kits to be shipped. The system automatically
generates “adjustments” on the reports when data input by the clinic staff do not agree to
certain information from the prior month’s report. For example, an adjustment is
generated when the beginning inventory balance in the current month does not match
the previous month’s ending balance.

The report and requisition forms were not always completed accurately, as in the
following examples:19

     •	 At one clinic, where storage space was limited and shelving was inadequate,
        staff counted the inventory at the clinic but did not include the inventory
        stored for them at the district health center, creating a significant adjustment
        and uncertainty about available drugs. In several cases, the adjustments
        represented more than 100 percent of the amount of drugs dispensed for that
        month. A staff member said that carbon copies of the report and requisition
        forms are sometimes illegible, and that the district health office completes the
        last three columns of the report that is submitted to the central warehouse.
        Staff members at the clinic said that they do not receive copies of the
        computer-generated report; receiving a copy could help clinic officials identify
        problems.

     •	 Staff members at one clinic were unable to explain the computer adjustments
        on their reports. The implementing partner said that perhaps the clinic staff
        did not count items in the dispensary when taking the physical inventory
        count or did not record receipt of a shipment.

     •	 The pharmacy dispenser at one hospital stated that a human error in the
        monthly report caused a stock-out of one drug during April. He was able to
        keep patients on the drug by borrowing from another hospital and a nearby
        clinic. However, the implementing partner said that, according to its records,
        the hospital had at least 2 months stock on hand and that a stock-out should
        not have occurred. The partner could not explain the discrepancy between
        the stock-out reported by the dispenser and the information in the logistics
        management information system at the central warehouse.

     •	 At another hospital, the pharmacy dispenser said that adjustments on the
        September report were due to incorrectly entering either the beginning
        balance or physical count figures at the end of the month. He said that owing
        to staffing shortages, he often had to assign an untrained staff member to
        conduct the physical counts and complete the reports.

These challenges in understanding and accurately completing the monthly reports were
caused by a need for additional health facility staff training on the logistics management
information system. The lack of training was due to high health facility staff turnover and
the higher-than-expected number of antiretroviral therapy centers coming on board each
month. An official at one of the district health offices stated that most of the medical

19
  Audit work did not reveal instances of missing inventory or inaccurate perpetual inventory
records; all test counts conducted were materially correct. Rather, the inaccurate reports affected
commodity ordering, potentially leading to either shortages or overstocks of commodities.

                                                                                                12
professionals at the district’s clinics and hospitals had not been trained to use the
logistics system. Interviews with health facility staff revealed that most adjustments were
caused by the lack of training or understanding of staff assigned to conduct physical
inventory counts and complete the monthly forms. As discussed on page 10, the human
resource shortage in Zambia has created a situation in which four people must be
trained to have one trained person on staff, causing “training overload.” The lack of
training may also be at least partly attributed to the delay in the implementing partner’s
facility monitoring and evaluation plan, by which the partner would check facilities for
accurate reporting and would monitor storage conditions (see page 10).

Information about the kinds and quantities of drugs on hand is critical for managing an
uninterrupted supply of drugs. Errors in monthly reporting and ordering forms could
result in either overstocking or stock-outs of antiretroviral drugs and test kits. These
commodities are expensive and most have relatively short shelf lives. Overstocking can
lead to higher levels of expired products, waste, and inefficient use of scarce resources.
Stock-outs of antiretroviral drugs could cause patients on antiretroviral therapy to miss
their scheduled treatment regimen and develop resistance to the drugs.20 Stock-outs of
test kits reduce the number of new patients who can begin antiretroviral therapy and
interrupt the testing of patients currently on therapy. Patients on therapy must be tested
periodically to determine whether the treatment is effective or whether the drug regimen
should be modified.

Recommendation 1 relates to coordinating with personnel in the Global Health Bureau to
fully realize the implementing partner’s facility monitoring and evaluation plan; therefore,
no further recommendation in that area is necessary. However, to provide additional
training in logistics management to health facility staff, we are making the following
recommendation.

     Recommendation No. 4: We recommend that USAID/Zambia, in collaboration
     with key personnel in the Global Health Bureau, incorporate into project work
     plans measures to increase logistics management information system training for
     health facility staff.

We are not making a recommendation regarding the need for a USAID policy clearly
delineating the scope and the limitations of the activity manager’s role when involved in
a USAID/Washington-managed contract to which the mission allocates field support.
This issue is beyond the scope of this audit. The Office of Inspector General will explore
this issue in the report summarizing the series of similar audits being conducted during
fiscal year 2008, should the issue be noted as a concern in the other audits.




20
  Most therapy regimens are a combination of drugs and must be available for the rest of a
patient’s life.

                                                                                         13
Essential Medicines Were Often
Reported to Be Unavailable

  Summary: The original PEPFAR legislation recognized the importance of procuring
  and distributing medicines to treat opportunistic infections. However, these
  medicines often were not available at the health offices, clinics, and hospitals we
  visited. According to mission staff, procuring essential medicines was outside
  PEPFAR’s original mandate in Zambia and systems have not been developed to
  procure and deploy these medicines. The lack of essential medicines may limit the
  positive impact of providing HIV test kits and antiretroviral drugs.

In the original PEPFAR legislation, Congress recognized the importance of procuring
and distributing medicines to treat opportunistic infections. The legislation states that
appropriate treatment can reduce the need for costly hospitalization for treatment of
opportunistic infections caused by HIV. People living with advanced HIV infection are
vulnerable to bacterial, viral, and fungal infections and cancers, called “opportunistic
infections” because these infections take advantage of the opportunity offered by a
weakened immune system. HIV does not kill directly; instead, it weakens the body's
ability to fight disease. Infections rarely seen in those with normal immune systems are
deadly to those with HIV.

Although an individual may be on antiretroviral therapy, an opportunistic infection may
be fatal if it is not prevented or treated. Consequently, antiretroviral drugs alone are not
sufficient to prevent deaths from HIV/AIDS. A supply of essential medicines needs to be
available to treat those living with HIV/AIDS and to complement antiretroviral therapy.

Essential medicines are a broad group of drugs that include antibiotics and antifungal
drugs needed to prevent and treat opportunistic infections and sexually transmitted
diseases. Although availability of essential medicines is necessary to complement
antiretroviral therapy, these medicines were often reported not to be available at the
health offices, clinics, and hospitals we visited.

Although district health officials and clinic and hospital staff indicated that they had
adequate supplies of antiretroviral drugs, lab supplies, and, for the most part, HIV test
kits, nearly all staff interviewed (including mission staff) mentioned the lack of essential
medicines. For example:

   •	 A pharmacist at a district health office explained that the district experienced
      shortages of medicines to treat fungal infections and herpes.

   •	 A clinic director stated that the clinic needed medicines to treat fungal
      infections and vitamin B6 to boost the immune system.

   •	 Hospital staff members, provincial health officers, and district health office
      staff reported shortages of antibiotics and other essential drugs.




                                                                                         14
              Photograph taken by OIG auditor on November 8, 2007, at
              a clinic where staff reported a shortage of essential medicines
              needed to prevent and treat opportunistic infections.

In addition, according to information in the September 30, 2007, draft annual
performance report (the U.S. Government/Zambia’s annual progress report), the lack of
essential drugs has hindered the scale up of sexually transmitted disease services.

According to mission staff, procuring essential medicines was outside PEPFAR’s original
mandate in Zambia. Mission staff explained that, based on the level of resources in
PEPFAR’s first years, the U.S. Government’s country team in Zambia decided to focus
resources on (1) getting antiretroviral drugs to health facilities to save lives, (2)
developing a national antiretroviral drug logistics system, and (3) ensuring that
personnel were trained to provide antiretroviral therapy services. Additionally,
mission staff stated that PEPFAR budgetary requirements made it difficult to program
funding for the prevention and treatment of opportunistic infections and sexually
transmitted diseases. Mission staff also indicated that significant resources are
necessary to address essential drug system requirements related to HIV/AIDS.

As a result of the shortage of essential medicines for HIV/AIDS patients, the positive
impact of procuring, deploying, and warehousing other commodities may be limited. If
essential medicines are not made more readily available, persons who have tested
positive for HIV or those who are on antiretroviral therapy remain at risk of prolonged
illness and death from HIV/AIDS-related opportunistic infections.

Prior to our audit in Zambia, the mission was working with the U.S. Government’s
country team to increase funding to improve the availability and distribution of essential
medicines as part of the overall treatment of HIV/AIDS patients. The Office of the Global
AIDS Coordinator approved the increased funding on February 28, 2008. Therefore, we
are not making a recommendation related to improving the availability of essential
medicines for persons living with HIV/AIDS.




                                                                                       15
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft report, the mission concurred with all four recommendations,
described actions taken to address our concerns, and provided supporting
documentation. As a result, we determined that final action has been taken on all four
recommendations.

To address recommendation 1, the implementing partner’s 2008 work plan incorporates
a monitoring and evaluation plan, which includes monthly monitoring and evaluation site
visits. The partner has also appointed a senior technical advisor to oversee monitoring
and evaluation activities. In addition, the partner will report quarterly on the status of the
monitoring and evaluation implementation plan to the mission’s activity manager and to
the USAID/Washington-based cognizant technical officer. Therefore, final action has
been taken on recommendation 1.

To address recommendation 2, the implementing partner’s 2008 work plan incorporates
increased training in proper storage conditions for antiretroviral drugs and HIV test kits,
as part of its monitoring and evaluation site visits. In addition, the newly-appointed
senior technical advisor, who oversees monitoring and evaluation activities, will focus on
improving the abilities of the Ministry of Health and other partners to provide training in
improving storage conditions.          Therefore, final action has been taken on
recommendation 2.

To address recommendation 3, the mission developed an action plan to improve
commodity storage conditions. The plan includes, in coordination with the Ministry of
Health and the implementing partner, holding a donor coordination meeting, conducting
a formal assessment of facility storage conditions, prioritizing recommended storage
improvements, developing a storage improvement plan, mobilizing resources at a
stakeholders’ meeting, and implementing the improvement plan. Therefore, final action
has been taken on recommendation 3.

To address recommendation 4 the implementing partner’s 2008 work plan incorporates
increased training for health facility staff in the logistics management information system.
In addition, the newly-appointed senior technical advisor will focus on improving the
abilities of the Ministry of Health and other partners to provide training in the logistics
management information system.              Therefore, final action has been taken on
recommendation 4.

Comments by management are included in their entirety (without attachments) in
appendix II.




                                                                                           16
                                                                                APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Office of Inspector General’s Performance Audits Division conducted this audit in
accordance with generally accepted Government auditing standards. The audit was
designed to answer the following question:

   •	 Has USAID/Zambia procured, deployed, and warehoused its PEPFAR
      commodities to help ensure that intended results were achieved, and what
      has been the impact?

This report summarizes the results of audit work conducted at USAID/Zambia and
partner offices in Lusaka and at storage and health facilities in the city of Lusaka, and
Copperbelt and Central provinces, from October 30 to November 21, 2007. We also
performed fieldwork at the Partnership for Supply Chain Management’s (the Partnership)
regional distribution center in Nairobi, Kenya on November 26 and 27, 2007, and
conducted followup fieldwork at USAID/Washington from December 13, 2007, to
March 11, 2008.

The scope of the audit was limited to testing commodities procured through the
Partnership, USAID/Zambia’s primary partner for the President’s Emergency Plan for
AIDS Relief (PEPFAR) commodity procurement (see page 19 for the definition of
PEPFAR commodities.) The Partnership was selected for audit because, according to
the mission, the Partnership was responsible for procuring more than 83 percent of the
commodities procured by the mission during 2007 (see appendix III).

Additionally, the scope included verifying the number of individuals receiving
antiretroviral therapy on September 30, 2007, a required PEPFAR target related to the
procurement of antiretroviral drugs. The scope also included observing the presence
and working condition of laboratory equipment supplied by Family Health International
during fiscal year 2007, through its Zambia Prevention, Care, and Treatment program, to
the five health facilities selected for site visits. The Zambia Prevention, Care, and
Treatment program was selected because it was responsible for reporting the number of
individuals on antiretroviral therapy to the mission, and it procured a significant amount
of laboratory equipment and supplies (see appendix III).

In planning and performing the audit, we assessed the effectiveness of management
controls related to the procurement, storage, and distribution of commodities. These
included controls over reporting the number of individuals on antiretroviral therapy and
controls over antiretroviral drug and HIV test kit storage conditions.

No prior audit findings directly affected the areas included in the scope of this audit.




                                                                                           17
                                                                                 APPENDIX I 



We used the following criteria to answer the audit objective:

   •	 Public Law 108-25
   •	 USAID’s Automated Directives System 200, Introduction to Managing for
      Results (Introduction to Programming Policy), and 202, Achieving
   •	 The President’s Emergency Plan for AIDS Relief Fiscal Year 2007 Country
      Operational Plan Guidance
   •	 The President’s Emergency Plan for AIDS Relief Indicators Reference Guide
      (July 2007)
   •	 Republic of Zambia, Ministry of Health’s Standard Operating Procedures
      Manual for the Management of the National Antiretroviral Drug Logistics
      System (September 2006)
   •	 Republic of Zambia, Ministry of Health’s Standard Operating Procedures
      Manual for the Management of the National Test Kits Logistics System
      (September 2006)

Methodology
To answer the audit objective, we conducted interviews with USAID officials in the
Global Heath Bureau’s Office of HIV/AIDS, mission officials, and selected implementing
partners in Lusaka. We also met with PEPFAR and Centers for Disease Control and
Prevention staff in Lusaka, and with Zambia’s Ministry of Health officials. We reviewed
and analyzed Zambia’s 2007 country operational plan, the draft 2007 PEPFAR annual
performance report, selected partners’ work plans and quarterly progress reports, and
mission and partner trip reports.

We conducted site visits to the Ministry of Health’s central warehouse, three district
health office storage facilities, and five health facilities. At the warehouse and the district
storage facilities, we observed storage conditions, conducted test counts of selected
antiretroviral drugs and test kits, interviewed responsible staff, and inquired as to
availability of essential medicines and laboratory supplies. At the health facilities, we
observed storage conditions in the storerooms, dispensaries, and laboratories;
conducted test counts of selected antiretroviral drugs and test kits; observed the
existence and working condition of laboratory equipment purchased by Family Health
International during fiscal year 2007, through its Zambia Prevention, Care, and
Treatment program; inquired as to the availability of essential medicines and laboratory
supplies; tested the accuracy of the number of individuals on antiretroviral therapy;
reviewed monthly commodity ordering reports; and interviewed facility staff members.

The Zambia Prevention, Care, and Treatment program provided laboratory and other
support to health facilities in five of Zambia’s nine provinces and supported
approximately 60 health facilities accredited to provide antiretroviral therapy in these
five provinces. We judgmentally selected five health facilities for site visits within two
of those five provinces; we also conducted site visits at four related storage facilities.
We did not visit any health facilities receiving support from the Centers for Disease
Control and Prevention in the remaining four provinces.




                                                                                            18
                                                                              APPENDIX I 



At the five health facilities visited, we reviewed support for the number of individuals
on antiretroviral therapy reported to the mission as of September 30, 2007. Our review
accounted for 7,986 persons on antiretroviral therapy, representing 19.5 percent of the
total reported to the mission by the Zambia Prevention, Care, and Treatment program.

We used the following definitions and materiality thresholds to answer the audit
objective:

   •	 PEPFAR commodities are products purchased with PEPFAR funding for the
      detection and treatment of HIV/AIDS, including antiretroviral drugs, test kits,
      lab equipment, lab supplies, and essential drugs and medicines used to
      prevent and treat HIV/AIDS-related opportunistic infections.

   •	 Commodities were considered to have been procured if at least 90 percent of
      the procurement funding reported in the 2007 country operational plan was
      used to procure PEPFAR commodities during 2007. We used a 90 percent
      materiality threshold because this procurement target is not a PEPFAR
      mandated target.

   •	 Commodities were considered to have been deployed if products procured
      were distributed to storage and/or health facilities and to patients on
      antiretroviral therapy.

   •	 Commodities were considered to have been warehoused if storage
      conditions at storage facilities visited met the Zambian Ministry of Health
      standards, as described in the Ministry’s September 2006 standard operating
      procedure manuals. Storage conditions were considered “met” if most
      facilities visited met Ministry standards; storage conditions were considered
      “not always met” if most facilities visited met Ministry standards, but with
      qualifications or exceptions; and storage conditions were considered “not
      met” if most facilities visited did not meet Ministry standards. See appendix
      IV for the storage conditions tested.

   •	 The Office of the Global AIDS Coordinator has not established any required
      targets or indicators for measuring commodity procurement results.
      Therefore, for purposes of this audit, we defined intended results as the
      procuring, storing, and distribution of commodities planned in the 2007
      country operational plan, and achievement of the required 2007 PEPFAR
      target, “the number of individuals on antiretroviral therapy.”

In addition, as part of the multicountry audit effort, we performed procedures at the
regional distribution center in Nairobi, Kenya, as described in appendix V. Our visit to
the regional distribution center and the results of procedures conducted there did not
influence our answer to the audit objective; the discussion of our visit is included in this
report for informational purposes.




                                                                                         19
                                                                               APPENDIX II 





Date:          May 2, 2008

To:            Steven H. Bernstein, IG/A/PA Director

From:          Melissa Williams, Mission Director, USAID/Zambia /s/

Subject:       Management comments on the Audit of USAID/Zambia’s
               Procurement and Distribution of Commodities for the President’s
               Emergency Plan for AIDS Relief (Draft Audit Report No. 9-611-08-
               00X-P)

USAID/Zambia appreciates the IG conducting the audit on the PEPFAR commodities
procurement and distribution program. The above subject Audit Report and
recommendations will improve the quality of the program and will ensure that the people
of Zambia receive the services and products needed to curb the expansion and impact
of HIV/AIDS.

The Mission has reviewed and is in agreement with all four recommendations. The
following represents the Mission Management’s comments and decisions on actions
already taken, and actions planned to be taken, in order to properly address the
recommendations contained in the report.

Recommendation 1: We recommend that USAID/Zambia, in collaboration with key
personnel in Global Health Bureau, incorporate into project work plans measures
to fully implement the Contractor’s facility monitoring and evaluation plan.

Actions taken:

1. 	 The approved DELIVER PROJECT work plan for FY 2008 (Attachment 1)
     incorporates a monitoring and evaluation (M&E) component which includes monthly
     M&E field visits to facilities. In FY 2008, 120 site visits are projected, averaging 10
     facilities per month. This compares to 30 sites across 4 provinces in 2007.

2. 	 Effective March 1, 2008, the project redefined staff responsibilities and has identified
     one person, the Senior Technical Advisor, to manage overall M&E activities of staff,
     including scheduling, reporting and tracking of follow up actions. The position
     description for the Senior Technical Advisor and the DELIVER PROJECT
     organizational chart is attached (Attachment 2).

3. 	 All M&E visits now utilize a Logistics Data Quality and Inventory Management
     (LDQIM) Monitoring Tool packet (Attachment 3) which includes: LDQIM User's
     Guide; ARV Drug Logistics System checklist; HIV Test Kit Logistics System
     checklist; and the Logistics Supply Chain Quarterly Feedback report.

4. 	 Documented recommendations from these visits are shared with the Ministry of
     Health (MOH) and non-governmental organization (NGO) partners for system


                                                                                          20
                                                                                  APPENDIX II 



      improvement. The project team and district partners develop action plans to address
      the problems encountered. Results/recommendations of each M&E site visit are
      tracked through a database to help ensure proper follow-up.

5. 	 The LDQIM Tool packet, includes a Logistics Supply Chain Quarterly Feedback
     report (Attachment 3), that will feed into the monitoring and evaluation plan. Using
     this central information system, sites having anomalies that require further
     investigation by partner staff, such as repeated stock outs, errors in data collection
     and non-reporting are identified and prioritized for enhanced monitoring and
     evaluation and training.

6. 	 The USAID/Washington CTO will require the DELIVER PROJECT to report quarterly
     to the Mission Activity Manager and CTO on the status of implementation of the
     facility monitoring and evaluation plan. (Attachment 4).

Planned Actions:

1. 	 The Mission’s Activity Manager will continue to meet weekly with DELIVER
     PROJECT staff to monitor full implementation of the contractor’s facility monitoring
     and evaluation plan and activities. Further, the Activity Manager and Controller’s
     Office staff will conduct joint site visits to selected facilities at least once every six
     months to ensure that the contractor’s facility monitoring and evaluation plan is
     implemented and operational. The Activity Manager has outlined these meetings
     and visits in a Memorandum to the Chief of Party/DELIVER PROJECT (Attachment
     5).

The above constitutes measures taken to ensure that Recommendation 1 is addressed.
Therefore, Mission Management recommends that Recommendation 1 be closed.

Recommendation 2: We recommend that USAID/Zambia, in collaboration with key
personnel in the Global Health Bureau, incorporate into project work plans
measures to increase training for storage facility staff.

Actions taken:

1. 	 Proper storage procedures have been included in USAID/DELIVER PROJECT’S
     routine logistics training. Logistics training scheduled for 2008 includes one ARV
     training per month and six HIV test kits trainings per month, as per approved work
     plan for FY 2008.

      •	 Each ARV training session includes up to 20 participants from approximately 15
         sites. Therefore, the project expects to train 240 participants.1 In 2007, 154
         participants were trained.

      •	 Each HIV test kit training session includes up to 20 participants and 

         approximately 10 sites, leading to a total expected training figure of 1,440

         participants.2 This compares to 501 participants trained in 2007. 



1
    USAID | DELIVER PROJECT workplan, FY07-08, Intervention 2.1.1
2
    USAID | DELIVER PROJECT workplan, FY07-08, Intervention 3.1.1

                                                                                              21
                                                                              APPENDIX II 




2. 	 The approved DELIVER PROJECT work plan for fiscal year 2008 incorporates both
     formal training as well as on-the-job training (OJT). As a component of the regular
     M&E field visits to the health facilities, OJT is provided in proper storage of ARVs
     and HIV test kits. This will ensure that staff knowledge is up to date and that they
     are appropriately applying best practices.

3. 	 The DELIVER PROJECT has recently hired the Senior Training Advisor. This
     advisor will focus on improving the abilities of the MOH and partners to train on
     improving storage conditions nationwide and the use of LMIS. For the LMIS
     specifically, the project utilizes the central database to flag reporting data
     irregularities and alerts both M&E and training staff for appropriate follow-up. The
     position description for the Senior Training Advisor and the DELIVER PROJECT
     organization chart is attached (Attachment 2).

The above constitutes the decisions and measures taken to ensure that
Recommendation 2 is addressed. Therefore, Mission Management recommends that
Recommendation 2 be closed.

Recommendation 3: We recommend that USAID/Zambia, in collaboration with
other members of the United States Government country team and with the
Government of Zambia, develop an action plan to improve commodity storage
conditions.

Actions taken/planned and target completion date:

1. 	 The DELIVER PROJECT FY 2007-2008 work plan presently includes development
     of an action plan to address storage constraints.3 The first stage, a country-wide
     facility assessment plan, is scheduled to begin in July 2008 and completed by March
     2009. During the assessments, the HIV Test kit and ARV Drug Logistics System
     checklist (Attachment 3) will be used to determine the functionality of storage
     conditions at the facility levels.

2. 	 An action plan for storage facility improvement activities and work plan has been
     developed; copies are attached (Attachment 6).

      As part of the plan, USAID and project staff will continue to work closely with the
      Ministry of Health’s Manager of the Drug Supply Budget Line to investigate potential
      funding within the MOH to address storage facility improvements. While the GRZ
      recognizes that addition resources will be needed, they do not have sufficient
      resources to address all improvements to facilities. However, under the auspices of
      the MOH, a team will be tasked to secure resources from external sources such as
      the broader donor community. The USAID/Zambia Activity Manager will monitor
      status of implementation of the action plan during routine weekly meetings.

      The above constitutes the measures taken and planned to ensure that
      Recommendation 3 is addressed. Therefore, Mission Management recommends
      that Recommendation 3 be closed.


3
    USAID | DELIVER PROJECT workplan, FY07-08, Intervention 5.1.2.

                                                                                            22
                                                                                 APPENDIX II 




Recommendation 4: We recommend that USAID/Zambia, in collaboration with key
personnel in the Global Health Bureau, incorporate into project work plans
measures to increase logistics management information system training for
health facility staff.

Actions taken:

1. 	 The approved USAID | DELIVER PROJECT work plan for fiscal year 2008
     incorporates training in the logistics management information system (LMIS). In
     addition, OJT in the LMIS is incorporated in the monitoring and evaluation field visits,
     as per attached USAID/Deliver Zambia project work plan and LDQIM (Attachments 1
     and 3).

2. 	 The LMIS training scheduled for 2008 includes one ARV training per month and six
     HIV test kits training per month, as per attached approved work plan for FY 2008.

      •	 Each ARV training session includes up to 20 participants from approximately 15
         sites. Therefore, the project expects to train 240 participants.4 In 2007, 154
         participants were trained.

      •	 Each HIV test kit training session includes up to 20 participants and 

         approximately 10 sites, leading to a total expected training figure of 1,440

         participants.5 This compares to 501 participants trained in 2007. 


3. 	 USAID/Deliver has developed a Logistics Supply Chain Quarterly Feedback report
     (Attachment 2) which will feed into the monitoring and evaluation plan. In addition,
     the report will identify facilities with a low reporting rate which will be targeted for
     immediate action for improvement, such as increased logistics training.

4. 	 USAID’s logistics project has recently hired a senior training advisor. This advisor
     will focus on improving the abilities of the MOH and partners to train on improving
     storage conditions nationwide and LMIS use. For the LMIS specifically, the project
     utilizes the central database to flag reporting data irregularities and alerts both M&E
     and training staff for appropriate follow-up. The position description for the senior
     Training Advisor and organization chart is attached (Attachment 2).

The above constitutes the measures taken to ensure that Recommendation 4 is
addressed. Therefore, Mission Management recommends that Recommendation 4 be
closed.

The above constitutes USAID/Zambia’a management decisions with regard to
Recommendations 1, 2, 3 and 4. Therefore, in accordance with ADS 595.3 this memo
constitutes the management decisions and measures taken/planned to address the
recommendations in Audit Report No. 9-611-08-00X-P.


Attachment: a/s

4
    USAID | DELIVER PROJECT workplan, FY07-08, Intervention 2.1.1
5
    USAID | DELIVER PROJECT workplan, FY07-08, Intervention 3.1.1

                                                                                                23
                                                                                                APPENDIX III



   PARTNERS PROCURING COMMODITIES 

                                                                                                    COST
 IMPLEMENTING PARTNER                                   DESCRIPTION                              (unaudited)

Abt Associates                    Training materials                                              $     90,500
Academy for Educational
Development                       Training materials                                                     5,122
American Institutes for
Research                          Training materials                                                    94,075
                                  Test kits, lab equipment and supplies, training materials,
Catholic Relief Services          blankets, nutritional supplements, medical supplies                  141,174
Chemonics International           Training materials, medical supplies                                 183,680

Children's AIDS Fund              Training materials                                                     6,976
                                  Blankets, training materials, motorcycles, computer
Christian Aid                     equipment                                                            190,982
Development Alternatives, Inc.    Training materials                                                    86,185
Education Development
Center                            Training materials                                                     9,000
Family Health Care                Lab equipment and supplies, motorcycles, medical
International                     equipment, medical supplies, computer equipment                     1,763,688
Hope Worldwide                    Training materials, vehicles                                          46,431
International Executive Service
Corp                              Vehicles                                                              25,500

International Youth Foundation    Training materials, vehicles                                          59,938
Johns Hopkins
University/Center for
Communication Programs            Training materials                                                   154,216

John Snow, Inc.                   Lab equipment, training materials                                    136,475

Kara Counseling                   Training materials                                                     1,000
Parents and Children Together     Training materials                                                     2,116
Partnership for Supply Chain
Management                        Antiretroviral drugs, test kits, lab equipment and supplies      31,528,884
Population Services
International                     Male and female condoms, training materials, vehicles               1,408,609
Project Concern International     Training materials, vehicles                                         142,373
                                  Sexually transmitted infection drugs, lab equipment and
Research Triangle Institute       supplies, vehicles, motorcycles, computer equipment                  305,294
                                  Nutritional supplements, training materials, blankets,
World Concern                     medical supplies                                                      73,173
                                  Insecticide-treated nets, nutritional supplements, training
World Vision International        materials                                                           1,483,587

Total                                                                                           $ 37,938,978




                                                                                                             24
                                                                                      APPENDIX IV



         STORAGE CONDITIONS TESTED                                                          1




TEST                          STORAGE CONDITION TESTED                            RESULTS OF TESTS
         Storage area is secured with a lock and key, but is accessible during
    1    normal working hours; access is limited to authorized personnel.                Met
         Products that are ready for distribution are arranged so that
         identification labels and expiry dates and/or manufacturing dates are
    2    visible.                                                                        Met
         Items are stored according to instructions on carton, including arrows
    3    pointing up.                                                                    Met
         Products are stored and organized in a manner accessible for first-to­
    4    expire, first-out (FEFO) counting and general management.                       Met
         Storeroom is maintained in good condition (clean; all trash removed;
         sturdy shelves; organized boxes; no insecticides, chemicals, or old
    5    files; etc.).                                                                   Met
         Current space and organization is sufficient for existing products and
         reasonable expansion (i.e., receipt of expected product deliveries for
    6    foreseeable future).                                                            Met
         Cartons and products are in good condition and are not crushed due to
         mishandling. If cartons are open, determine if products are wet or
    7    cracked.                                                                        Met
         Damaged and/or expired products are separated from usable
    8    products.                                                                  Not Always Met
    9    Products are protected from direct sunlight.                                     Met
         Cartons and products are protected from water and humidity
    10   (i.e., there is no evidence of water damage).                                   Met
         Storage area is visually free from harmful insects, rodents, termites,
    11   etc.                                                                            Met
         Products are stored at the appropriate temperature, according to
         product temperature specifications. Does the air conditioner work?
    12   Are there power outages? Is there a backup generator?                         Not Met
         Roof is in good condition, to avoid sunlight and water penetration.
    13   Is there any evidence of leakage?                                               Met
    14   Products are stacked at least 4 inches off the floor.                           Met
         Products are stacked at least 1 foot away from the walls and other
    15   stacks.                                                                       Not Met
    16   Products are stacked no more than 8 feet high.                                 Met
         Is fire safety equipment available and accessible, such as fire
    17   extinguishers and sand or soil in a bucket?                                   Not Met
         Package and product integrity – check for damage to packaging (tears,
         perforations, water or oil) and products (broken or crumbled tablets,
    18   broken bottles).                                                                Met
         Labeling – products are labeled with the date of manufacture or
    19   expiration, lot number, and manufacturer's name.                                Met




1
 The storage conditions tested were based on Zambia’s Ministry of Health standard operating
procedures and on the USAID|DELIVER project’s facility monitoring tool.


                                                                                                     25
                                                                                       APPENDIX V



    SITE VISIT TO THE NAIROBI REGIONAL 

           DISTRIBUTION CENTER 

The regional distribution center in Nairobi, Kenya is a warehouse operated by Fuel
Africa, a member of the Partnership for Supply Chain Management consortium (the
Partnership).2 Fuel Africa has a contract with the Partnership to provide warehousing
and logistics support to ensure that commodities are delivered to countries participating
in the Partnership’s system. Fuel Africa’s role is to receive commodities that the
Partnership has ordered from various manufacturers, properly store and secure the
commodities, and arrange shipment of the commodities to their final destination, upon
specific order by the Partnership. Fuel Africa bills the Partnership on a pallet per month
basis and also bills the Partnership for activities involved in receiving, packaging, and
shipping the commodities.

Although the distribution center was originally designed to provide commodities primarily
to Ethiopia, Rwanda, Tanzania, and Uganda, it ships commodities on an as-needed
basis as directed by the Partnership. For example, we observed shipments of
antiretroviral drugs to Zambia and Zimbabwe. We also observed warehouse conditions,
conducted test counts of selected antiretroviral drugs and HIV test kits, reviewed
dispatch records of shipments to Zambia, reviewed documentation for a sample of
commodities received from manufacturers, and interviewed distribution center staff. The
warehouse was clean and well organized, commodities were properly and securely
stored, and all procedures were performed without material exception.




                  Photograph taken by OIG auditor on November 26, 2007,
                  at the Nairobi regional distribution center, showing a
                  clean, well-organized warehouse.


2
  At the end of the audit fieldwork, the Partnership had three regional distribution centers, located
in Kenya, Ghana, and South Africa. The centers in Ghana and South Africa will be visited and
reported on by audit teams conducting similar multicountry audits during fiscal year 2008. Our
visit to the regional distribution center in Kenya did not influence the answer to our audit objective.
This appendix is included for informational purposes only.

                                                                                                    26
U.S. Agency for International Development 

        Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
